                                    National Science Foundation
                                      420 1 Wilson Boulevard
                                     Arlington, Virginia 22230


Office of Inspector General


MEMORANDUM

Date:
                  MAE 2 C 2008
To:             Mary F. Santonastasso, Director
                                          Award Support

 From:         Deborah H. Cureton
               Associate Inspector General for Audit

Subject:       Audit Report No. OIG-08-1-006
               SRI International


Attached is the final audit report, prepared by Mayer Hoffman McCann P.C., an independent public
accounting firm, on the audit of NSF Cooperative Agreement No. ATM-0121483 awarded to SRI
International (SRI). The audit covered NSF-funded costs claimed from August 1, 2003 to
December 3 1, 2006 aggregating to approximately $30 million of NSF direct funded costs. There
were no cost sharing requirements for this award.

Overall, the auditors determined that the costs claimed by SRI appear fairly stated and are
allowable, allocable, and reasonable for the NSF award. The auditor also found that SRI's financial
reporting system, including reporting subaward costs, equipment and property, is adequate to
administer its awards. However, the auditors identified one instance of reportable noncompliance
with the Nunavut Territorial law and the terms and conditions of the NSF cooperative agreement.

Specifically, the audit disclosed that SRI had not requested and/or maintained all annual licensing
renewals to conduct scientific research activities at the Resolute Bay Observatory, as required by
the Nunavut Territory authorities, on a timely basis. In addition, SRI did not keep the authorities
fully apprised of the scientific research activities performed on the Advanced Modular Incoherent
Scatter Radar (AMISR) project through its annual license renewal reporting requirement or obtain
NSF review and approval of all agreements with the Canadian authorities, as required by its
agreement. The noncompliance was caused by SRI's lack of a written policy and procedure for
obtaining scientific license renewals and its misunderstanding of the license renewal process and
requirements. As a result, if SRI is publicly cited for failure to report scientific activity and failure
to renew the required license in a timely manner, SRI and NSF run the risk of poor government
relations with Nunavut Temtorial government and the local community of Resolute Bay; loss of
property rights to the AMISR project; and continued AMSIR project delays and increased project
costs.
To address this compliance deficiency, we recommend that your office direct SRI to (1) establish
and implement written license renewal policies and procedures; (2) obtain and maintain the required
international Scientific Research License renewals needed for all NSF projects and, (3) coordinate
the license application process with NSF as required in the award agreement.

SRI concurred with the report finding and indicated that it was taking corrective actions to ensure
that the required licenses are renewed and maintained for all NSF projects. The finding should not
be closed until NSF determines that all recommendations have been adequately addressed and the
proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the Division Director and Program Director of
GEOIATM. The responsibility for audit resolution rests with the Division of Institution and Award
Support, Cost Analysis and Audit Resolution Branch (CAAR). Accordingly, we ask that no action
be taken concerning the report's findings without first consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector General:

       Reviewed Mayer H o f h a n McCann's approach and planning of the audit;

       Evaluated the qualifications and independence of the auditors;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with Mayer Hoffman McCann and NSF officials, as necessary,
       to discuss audit progress, findings, and recommendations;

       Reviewed the audit report, prepared by Mayer H o f h a n McCann to ensure compliance with
       Government Auditing Standards and the NSF Audit Guide; and

       Coordinated issuance of the audit report.

Mayer Hoffman McCann is responsible for the attached auditor's report on SRI International and
the conclusions expressed in the report. We do not express any opinion on the Schedule of Award
Costs, internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact me at 703-292-4985 or Jannifer Jenkins at
703-292-4996.


Attachment

cc: Richard A. Behnke, Division Director (Acting), GEOIATM
    Robert M. Robinson, Program Director, GEOIATM
                 SRI INTERNATIONAL
333 RAVENSWOOD AVENUE, MENLO PARK, CALIFORNIA 94025-3493

      NATIONAL SCIENCE FOUNDATION AWARD NUMBER
                      ATM-0121483



      FINANCIAL AUDIT OF FINANCIAL SCHEDULES AND
            INDEPENDENT AUDITORS’ REPORT
           AUGUST 1, 2003 TO DECEMBER 31, 2006




                               MAYER HOFFMAN McCANN P.C.
                               Conrad Government Services Division
                               Certified Public Accountants
                               12761 Darby Brooke Court, Suite 201
                               Woodbridge, Virginia 22192
            THE RELOCATABLE ATMOSPHERIC OBSERVATORY: A GLOBAL
                        INCOHERENT SCATTER RADAR

                                                   SRI INTERNATIONAL


                                                  TABLE OF CONTENTS

                                                                                                                                    Page

Executive Summary:
  Background .......................................................................................................................... 1
  Audit Objectives, Scope, and Methodology......................................................................... 1
  Summary of Audit Results ................................................................................................... 2
  Exit Conference.................................................................................................................... 4

Compliance and Internal Controls:
  Independent Auditors’ Report on Internal Control over Financial Reporting and on
    Compliance and Other Matters Based on an Audit of Financial Schedules Performed in
    Accordance with Government Auditing Standards .........................................................                            5

      Scientific Research License Not Renewed Timely, Scientific Activity on AMISR Project
      Not Reported on Annual Reports to the Nunavut Territory Authorities, and Licensing
      Process Not Coordinated with NSF ................................................................................... 8

Financial Schedules and Supplemental Information:
  Independent Auditors’ Report on Financial Schedules ........................................................                       15
  Schedule A – Schedule of Award Costs (Award No. ATM-0121483) ...............................                                       17
  Schedule B – Summary Schedules of Award Audited and Audit Results ...........................                                      18
  Notes to Financial Schedules ..............................................................................................        19

Appendix A - Awardee’s Comments to Report.................................................................... 21




                                                                i
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to SRI International (SRI)
under Cooperative Agreement No. ATM-0121483 for the period August 1, 2003 to December
31, 2006. SRI, as a Federal awardee, is required to follow the cost principles specified in Federal
Acquisition Regulations Part 31, Contract Cost Principles and Procedures, and the Federal
administrative requirements contained in OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations. (OMB Circular A-110 has been incorporated into 2 CFR 215).

SRI International (SRI), located in Menlo Park, CA, was originally founded as Stanford
Research Institute in 1946 by the trustees of Stanford University as a center of innovation to
support economic development in the Palo Alto area. In 1970, Stanford Research Institute
separated its ties with the University and became SRI International (official not-for profit status)
in 1977. SRI’s main purpose is to perform client-sponsored research and development for
government agencies, commercial business, and private foundations. In addition to performing
research and development, SRI also licenses its technologies, forms strategic partnerships, and
creates spin off companies, which SRI operates as subsidiary companies.

NSF awarded Cooperative Agreement ATM-0121483, The Relocatable Atmospheric
Observatory: A Global Incoherent Scatter Radar (aka, Advanced Modular Incoherent Scatter
Radar [AMISR]) to SRI for the period August 1, 2003 through July 31, 2007 for the amount of
$43,999,996. The purpose of the award was to utilize NSF funds to design, construct, and
deploy modular phased-array radar that can be assembled and disassembled easily and at a low
cost to provide upper atmospheric and ionospheric observing capabilities at different locations.
The antenna of the phased array radar will consist of three segments (faces), with each face
capable of being operated independently as an incoherent scatter radar. The first face will be
deployed at the Poker Flat Research Range in Alaska. The second and third faces will be
deployed at Resolute Bay in the Canadian Arctic. SRI will have the primary responsibility for
the award and will issue and monitor subcontracts for the design and manufacturing of the
various components. Cumulative disbursements for award number ATM-0121483 reported to
NSF through December 31, 2006 were $30,033,100. There was no cost sharing requirement for
this award.



AUDIT OBJECTIVES, SCOPE & METHODOLOGY

The objectives of our audit were to:

   1. Determine whether the Schedule of Award Costs (Schedule A) of SRI International
      presents fairly, in all material respects, the costs claimed on the Federal Cash
      Transactions Reports (FCTR) and the costs claimed are in conformity with Federal and
      NSF award requirements.



                                                 1
   2. Determine whether the costs incurred under subcontracts awarded by SRI to Sanmina-
      SCI Corporation, Comtech PST Corporation, and VECO Alaska, Inc., were documented
      and allowable under the terms and conditions of the subcontract agreements, NSF, and
      Federal regulations.

   3. Verify that SRI is accounting for property purchased and/or constructed under the NSF
      award in accordance with the terms and conditions of the cooperative agreement.

   4. Identify matters concerning instances of noncompliance with laws, regulations, and the
      provisions of the award agreement pertaining to the NSF award and weaknesses in SRI’s
      internal control over financial reporting that could have a direct and material effect on the
      Schedule of Award Costs and SRI’s ability to properly administer, account for, and
      monitor its NSF awards.

   5. Determine whether SRI has obtained and is complying with the requirements for
      international permits and/or other approvals necessary to construct, assemble, and deploy
      the Advanced Modular Incoherent Scatter Radar at Resolute Bay in accordance with the
      terms and conditions of the NSF cooperative agreement.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards (2007 revision), issued by the Comptroller General of the United States; and guidance
provided in the National Science Foundation Audit Guide (December 2004 amended), as
applicable. These standards and the NSF Audit Guide require that we plan and perform the
audit to obtain reasonable assurance about whether the amounts claimed to NSF as presented in
the Schedule of Award Costs (Schedule A) are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the Schedule of
Award Costs. An audit also includes assessing the accounting principles used and the significant
estimates made by SRI, as well as evaluating the overall financial schedule presentation. We
believe that our audit provides a reasonable basis for our opinion.


SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF by SRI
on NSF award number ATM-0121483. These costs are shown in the Schedule of Award Costs
(Schedule A) and are summarized as follows.

 NSF Award No.        Award Budget          Claimed Costs       Questioned Costs


 ATM-0121483          $    43,999,996        xxxxxxxxxxx                        $0




                                                2
We determined that the costs claimed by SRI, including subawards, for NSF award No. ATM-
0121483 for the audit period August 1, 2003 to December 31, 2006, appear fairly stated and are
allowable, allocable, and reasonable for the NSF award. We also noted that SRI is accounting for
property purchased and/or constructed under the NSF award and is submitting property records
to NSF that identify the full description and cost of the equipment, in accordance with the terms
and conditions of the cooperative agreement. We did not identify any internal control
weaknesses in SRI’s financial reporting process that could have a direct and material effect on
the Schedule of Award Costs or SRI’s ability to administer its NSF awards. However, we
identified one reportable noncompliance with Nunavut Territorial law and the NSF agreement
that could hinder SRI’s ability to obtain and maintain the necessary permission from the territory
of Nunavut to conduct its scientific research and thereby could interrupt or delay the completion
of the Advanced Modular Incoherent Scatter Radar and other scientific projects at the Resolute
Bay Observatory.

Specifically, we found that SRI has obtained the Multi-Year Scientific Research License
required to conduct science research activities at the Resolute Bay Observatory (RBO) but has
not requested and/or maintained all annual licensing renewals on a timely basis. In addition, SRI
has not reported any activities concerning the Advanced Modular Incoherent Scatter Radar
(AMISR) project in annual reports to the Nunavut Territory authorities or obtained NSF review
and approval of some agreements between SRI, Nunavut Territory authorities, and the Canadian
Government. The lack of a written policy and procedure for obtaining scientific license renewals
and SRI’s misunderstanding of the license renewal process and requirements, have contributed to
SRI’s failure to maintain timely license renewals; report complete information in its annual
report to the Nunavut territorial government; and obtain required approvals from NSF.
Therefore, NSF did not have the opportunity to ensure that SRI’s and its property rights were
protected or that SRI’s scientific licensing renewal process was adequate. Ultimately, SRI could
have lost its permission from the Nunavut territorial government to conduct any scientific
research at the RBO as a consequence of the failure to promptly renew the required license.
Moreover, none of the planned activities for the AMISR project have been approved under the
license because they have not been reported to the Nunavut territorial government in the annual
report. If SRI is publicly cited for failure to report scientific activity and failure to renew the
required license in a timely manner, SRI and NSF run the risk of poor government relations with
Nunavut territorial government and the local community of Resolute Bay; loss of property rights
to the AMISR project; and continued AMSIR project delays and increased project costs. Once
SRI realized that its annual scientific license had lapsed it obtained assurance from the Nunavut
Territory authorities that its immediate operations would not be affected because it’s multi-year
license was still in effect.

To address this compliance deficiency, we recommend that NSF’s Director of the Division of
Institutional and Award Support (DIAS) ensure that SRI: 1) establish and implement written
license renewal policies and procedures to ensure that the proper licenses are obtained and
scientific activity is included in annual reports in a timely, accurate, and thorough manner; 2)
obtain and maintain the required international Scientific Research License renewals needed for
all NSF projects including the AMISR at the RBO; and 3) coordinate the license application
process with NSF as required in the award agreement, which would ensure that all of NSF’s and



                                                3
SRI’s property rights are protected, complete scientific activity is reported, and licenses are
renewed timely.

SRI responded to the draft report on March 21, 2008. In its response, SRI concurs with the
finding and states that it has included all of the license renewal, scientific reporting and NSF
review requirements in its project deliverables reporting and tracking system. This will allow for
proper reporting and tracking of due dates and status of the project deliverables and/or reporting
requirements under each of SRI’s contracts.

The finding in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective actions have been
satisfactorily implemented. SRI’s response has been summarized in the report and is included in
its entirety in Appendix A attached to this report.

For a complete discussion of audit findings, refer to the Independent Auditors’ Report on
Internal Control over Financial Reporting and on Compliance and Other Matters Based on an
Audit of Financial Schedules Performed in Accordance with Government Auditing Standards.


EXIT CONFERENCE

We conducted exit conferences on November 15, 2007 and February 29, 2008 via telephone.
We discussed the preliminary findings and recommendations noted during the audit.
Representing SRI was the following individuals:

       •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       •   xxxxxxxxxx xxxxxxxxxxx xxxxxxxx x

Representing Mayer Hoffman McCann P.C. – Conrad Government Services Division were:


            Name                           Title

    xxxxxxxxxxx                          xxxxxxxxxxx
    xxxxxxxxxxx                          xxxxxxxxxxx




                                                   4
COMPLIANCE AND INTERNAL
       CONTROLS
               Conrad Government Services Division




                    INDEPENDENT AUDITORS’ REPORT ON
    INTERNAL CONTROL OVER FINANCIAL REPORTING AND ON COMPLIANCE AND
         OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL SCHEDULES
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS


National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


We have audited the costs claimed as presented in the Schedule of Award Costs (Schedule A),
which summarizes the financial reports submitted by SRI International (SRI) to the National
Science Foundation (NSF) for the award listed below and have issued our report thereon dated
March 27, 2008.

            Award Number                           Award Period                          Audit Period

             ATM-0121483                        08/01/03 – 7/31/07                  08/01/03 – 12/31/06


We conducted our audit of the Schedule of Award Costs as presented in Schedule A in
accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards (2007
revision), issued by the Comptroller General of the United States; and the guidance provided in
the National Science Foundation Audit Guide (December 2004 amended), as applicable.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the
period August 1, 2003 to December 31, 2006, we considered SRI’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of expressing
our opinion on the financial schedule, but not for the purpose of expressing an opinion on the
effectiveness of SRI’s internal control over financial reporting. Accordingly, we do not express
an opinion on the effectiveness of SRI’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses.

          2301 Dupont Drive, Suite 200 y Irvine, California 92612 y 949-474-2020 ph y 949-263-5520 fx
    12761 Darby Brooke Court, Suite 201 y Woodbridge, Virginia 22192 y 703-491-9830 ph y 703-491-9833 fx
A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of SRI’s financial
schedule that is more than inconsequential will not be prevented or detected by SRI’s internal
control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial schedules
will not be prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all deficiencies
in the internal control that might be significant deficiencies and, accordingly, would not
necessarily disclose all significant deficiencies that are also considered to be material
weaknesses. We did not identify any deficiencies in internal control over financial reporting that
we consider to be significant deficiencies or material weaknesses, as defined above.


COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether SRI’s financial schedule is free of
material misstatements, we performed tests of SRI’s compliance with certain provisions of
applicable laws, regulations, and NSF award terms and conditions, noncompliance with which
could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests of compliance
disclosed one instance of noncompliance or other matters that are required to be reported under
Government Auditing Standards and the National Science Foundation Audit Guide and which
are described in Finding No. 1.

SRI’s response to the finding identified in our audit is described after the finding and is included
in its entirety in Appendix A. We did not audit SRI’s response and, accordingly, we express no
opinion on it.

This report is intended solely for the information and use of SRI’s management, the National
Science Foundation, SRI’s Federal Cognizant Agency, the Office of Management and Budget,




                                                 6
and the Congress of the United States and is not intended to be and should not be used by anyone
other than these specified parties.




Woodbridge, Virginia
March 27, 2008




                                               7
Finding 1. Scientific Research License Not Renewed Timely, Scientific Activity on AMISR
Project Not Reported on Annual Reports to the Nunavut Territory Authorities, and
Licensing Process Not Coordinated with NSF.

SRI has obtained the Multi-Year Scientific Research License required to conduct science
research activities at the Resolute Bay Observatory (RBO) but has not requested and/or
maintained all annual licensing renewals on a timely basis. In addition, SRI has not reported any
activities concerning the Advanced Modular Incoherent Scatter Radar (AMISR) project in
annual reports to the Nunavut Territory authorities or obtained NSF review and approval of some
agreements between SRI, Nunavut Territory authorities, and the Canadian Government. The
lack of a written policy and procedure for obtaining scientific license renewals and SRI’s
misunderstanding of the license renewal process and requirements, have contributed to SRI’s
failure to maintain timely license renewals; report complete information in its annual report to
the Nunavut territorial government; and obtain required approvals from NSF. Therefore, NSF
did not have the opportunity to ensure that SRI’s and its property rights were protected or that
SRI’s scientific licensing renewal process was adequate. Ultimately, SRI could have lost its
permission from the Nunavut territorial government to conduct any scientific research at the
RBO as a consequence of the failure to promptly renew the required license. Moreover, none of
the planned activities for the AMISR project have been approved under the license because they
have not been reported to the Nunavut territorial government in the annual report. If SRI is
publicly cited for failure to report scientific activity and failure to renew the required license in a
timely manner, SRI and NSF run the risk of poor government relations with Nunavut territorial
government and the local community of Resolute Bay; loss of property rights to the AMISR
project; and continued AMSIR project delays and increased project costs. Once SRI realized
that its annual scientific research license had lapsed it obtained assurance that its immediate
operations would not be affected because it’s multi-year license was still in effect.

SRI’s Cooperative Agreement No. ATM-0121483, Section I. Special Conditions, C.2.d) requires
that SRI “Work with officials of the Canadian government, and/or officials for the government
of the territory of Nunavut, to obtain the permits or other approvals necessary for the
construction, assembly and deployment of AMISR at Resolute Bay, on the site of the existing
NSF facility located at Nunavut airport. All agreements between SRI and Canadian officials, or
between NSF and Canadian officials, are subject to prior review and approval by NSF. All such
agreements should address future obligations to NSF for land leases, site remediation, or any
other long-term obligation associated with the installation of the AMISR facility at Resolute Bay.
All such agreements must reserve the rights of the awardee and/or NSF to remove AMISR
equipment from Canada in the event of a future relocation and preserve the U.S government’s
title to the equipment. All agreements must also contain assignment provisions that will allow
NSF to transfer the operations and maintenance of the AMISR installation to another award. ”

The RBO, where the AMISR will be constructed at the Resolute Bay Airport, is located on Inuit-
owned land in the Nunavut Territory. The Scientists Act, R.S.N.W.T, 1988, C.s-4, requires all
scientific researchers to obtain a license for research activities in Nunavut territory. The
Nunavut Research Institute (NRI) part of the Nunavut Arctic College, is responsible for
approving and administering these scientific research licenses.

                                                  8
The Nunavut Scientific Research License is important because the Inuit have significant
concerns and reservations about how research is conducted and about the impact of scientific
activities on their communities.        Specific concerns include whether projects involve
technological innovations for which the effects are unknown or whether projects may have
significant adverse effects on the ecosystem, wildlife habitat or Inuit harvesting activities. NRI’s
scientific research approval and licensing process is designed to protect and promote the existing
and future well-being of the residents and communities of the Nunavut Settlement Area. NSF is
also concerned that the proper licenses are maintained in order to comply with Nunavut
Territorial and Canadian Government requirements, foster good international and scientific
relationships, and protect SRI’s property rights.

Organizations that desire to conduct research at the RBO must comply with NRI’s regulatory
requirements to obtain proper approval. First, all requestors are required to submit an application
to the NRI for the specific type of research activity that will be undertaken. Once the application
is submitted it is forwarded by NRI for review by several different organizations depending on
the extent and nature of the project (i.e. Hamlet Community, Hunters and Trappers Associations,
Nunavut Impact Review Board, Nunavut Wildlife Management Board, Department of Fisheries
and Oceans, other various Inuit organizations). These review committees provide the NRI with
comments or questions regarding the project. These comments and questions are forwarded by
NRI to the requestor who is responsible for providing explanations and answering any questions
regarding the proposed research activities. The requestor’s responses and application are then
reviewed by the Nunavut Impact Review Board (NIRB).                  Once the NIRB approves the
application it is forwarded to the NRI Executive Director who provides final approval and issues
the license to the requestor. The license is subject to the terms conditions determined by the
Nunavut Impact Review Board and the NRI Executive Director. Under the provisions of the
Scientists Act, the NRI requires the requestor to submit a 500 - 1000 word non-technical annual
summary of their research activities and findings in English and Inuktitut or Inuinaqtun format.
The translation ensures maximum accessibility of the research results to Nunavut residents. The
annual report is required to describe research activities performed during the current calendar
year and expected research activities for the following calendar year, which is the effective
period of the requested license. The NRI requires a minimum 45-day processing time frame for
the renewal process and the license renewals are usually issued for a one-year calendar period
from January 1 to December 31. The Scientists Act, R.S.N.W.T, 1988, C.S-4, Section 7, states
that “Every person who contravenes this Act or the regulations or a condition of a license issued
under this Act is guilty of an offence and liable on summary conviction to a fine not exceeding
$1,000 or to imprisonment for a term not exceeding six months or to both.”

Specifically, for the AMISR project, SRI’s xxxxxxxxxxxxxxxxxxxxx is responsible for ensuring
compliance with the terms and conditions of NSF’s cooperative agreement and its requirement to
maintain proper approvals and licenses with the Nunavut and Canadian Governments for the
RBO. The xxxxxxxxxx the Nunavut Scientific Research License compliance responsibility to the
xxxxxxxxxxx xxxxxxxxxx and provides oversight of the xxxxxxxxxxx compliance efforts. The
Nunavut Scientific Research License is only one of the licenses required by the Nunavut and
Canadian governments. Other licensing requirements associated with the AMISR project have



                                                 9
been completed. Further licensing will be required once construction of the AMISR begins at
the RBO.

Annual Scientific Research License Not Renewed Timely

In 2003, SRI renewed the Multi-Year Scientific Research License, valid through 2013, from
NRI. The license provides SRI permission to conduct scientific research at the RBO. Even
though the Multi-year Scientific Research license has been obtained, the license must be renewed
annually by the NRI to ensure continued permission to conduct specific research activities for
each calendar year period of time at the RBO. The Scientific Research License was properly
renewed in 2004 and 2005, however, SRI failed to comply with the annual renewal requirement
for the license for part of 2006 and most of 2007. Instead of submitting the 2005 annual report
to NRI by November 15, 2005, to comply with the 45-day minimum processing requirement,
SRI submitted the annual report late to NRI in January 2006. NRI did not take immediate action
to approve the annual report, which further delayed the approval process. The delays resulted in
the 2006 license being issued on June 30, 2006. As a result, the renewal period only covered a
six-month period for June 30 – December 31, 2006.

The problems encountered for the 2006 license renewal had a negative effect on SRI’s 2007
renewal efforts. SRI failed to realize that the renewal period for 2006 ended on December 31,
2006. SRI officials mistakenly thought the renewal for 2006 was valid for a 12-month period
starting June 30, 2006 ending on June 29, 2007, even though the effective period was indicated
on the license. Based on this assumption, SRI submitted the annual report to NRI in February
2007, with the intentions of complying with NRI’s processing time frame for the license renewal.
Again, NRI did not take immediate action to approve the report and renew the license. NRI did
not issue the 2007 license to SRI until November 2007.

The xxxxxxxxxxxxx was unaware of licensing remedies available to SRI in situations when
license renewals are pending or overdue for a specific period of time. In 2006, SRI was issued a
license that did not include the January 1 – June 29, 2006 time period. The xxxxxxxxxx xxx
was unaware that SRI could have requested a temporary “official” license for the January 1
through June 29, 2006 time period. NRI advised the xxxxxxxxxx xxxxxxxx xxx that NSF
operations would not be affected because the Multi-Year Scientific Research License was still in
effect even though the 2006 license renewal was only for a six-month period of time.

SRI’s failure to maintain timely license renewals occurred because of a lack of a written policy
and procedure for obtaining license renewals and SRI’s misunderstanding of the license renewal
process and requirements. SRI does not have a routine and systematic process for determining
when due dates for approvals and licensing requirements must be complied with to ensure the
continuity of operations. In addition, NRI has constantly changed licensing requirements over
the years that has also caused confusion to the xxxxxxxxxx xxx and has contributed to SRI’s
misunderstanding of requirements. SRI’s xxxxxxxxxx xxx, who is responsible for compliance
with licensing requirements contacts the NRI on a random basis to determine the current license
compliance requirements for the RBO. The xxxxxxxxxx xxxxxxxxxxxxx xx                x regarding
the approval process and the importance of timing regarding the submission of the required
documents to the NRI for approval.


                                              10
A formalized license renewal process would help SRI comply with regulatory licensing
requirements and ensure that the proper personnel are aware of the requirements and expiration
dates. When appropriate, SRI should be required to provide a plan for acquiring licenses so that
NSF officials are aware of which research activities should be included in the required
applications and what approvals are mandatory for research projects.

Scientific Activity on AMISR Project Not Reported on Annual Reports to the Nunavut
Territory Authorities

SRI did not report the status of any scientific activities concerning the AMISR project in its
annual reports that were submitted to the NRI with SRI’s scientific research license renewal
applications. SRI only reported on scientific projects that are deployed or in operation in its
annual plan. However, according to NRI, it is interested in all phases of scientific activity
performed on a project. The annual report is required to describe research activities performed
during the current calendar year and expected research activities for the following calendar year,
which is the effective period of the requested license.

In 2004, SRI properly started to apply for and obtain the necessary approvals needed for the
AMISR that was originally scheduled for deployment in 2006. One of the requirements included
conducting an environmental assessment for use of the land at the RBO. SRI completed the
assessment in 2006, and received NSF’s and NRI’s approval in 2006. However in 2005, SRI
postponed the AMISR deployment until 2008 because of delays in the final Resolute AMISR
configuration and prime power distribution methods.

SRI did not include a discussion of the activities involving AMISR in the annual reports for 2005
through 2007 that supported the scientific license renewal applications, because the AMISR was
not scheduled for deployment until 2008. Specifically, the annual reports for 2005 through 2007
should have explained that steel for the AMISR platforms was purchased in 2005, shipped to
RBO in 2006 and is being stored at the Resolute Bay port for the expected deployment in 2008.
The annual reports should have explained how this material would be stored at the port until the
radar was assembled and constructed to ensure that NRI was fully informed and that it would
provide the proper approvals for issuance of the license renewals. The failure to include the
status of the AMISR in the annual reports occurred because of SRI’s misunderstanding of NRI’s
license requirements to report all scientific activity on a project in the years in which the license
is effective and is being renewed. Including this activity in the annual reports would also be
necessary to protect the U.S. Government’s rights and access to the property being stored at the
Resolute Bay port.

Having proper licenses and reporting all scientific activity could prevent further delays to the
AMISR project. Due to the geographical location of the RBO, materials and supplies can only
be shipped during the late summer (usually in August) to the Canadian Artic when the
waterways are ice-free and shipping to RBO is possible. Shipping by means of sealift to the
Canadian Artic is the most cost effective method of shipping to the RBO. If scheduled
shipments are not made during this time frame the materials and supplies will have to remain at
SRI and/or in storage at some other designated location until late summer in the following year


                                                 11
for shipment to occur. Shipping delays will lead to interruptions in construction, missed project
completion milestones, and, inefficient use of staff and contractor time during periods when
materials are not available for assembly and construction at the RBO. The AMISR project has
already been subject to a significant cost increase in 2007 when the NSF extended the project’s
period of performance to fall 2008 and funded an additional $4 million to complete the project.
This action was based on unforeseen delays, and, increased costs of materials and equipment.
The lack of proper licenses from NRI could cause the project to be delayed beyond 2008 and be
subject to additional shipping, storage, and costs to complete the project. In 2008, the assembly
and construction of the AMISR is scheduled to take place and the majority of the AMISR’s
equipment, and, materials and supplies are scheduled for shipment to the RBO. Therefore, it is
essential to have the proper license and report the proper activity to NRI to protect the NSF’s and
SRI’s rights and interests in AMISR property at the RBO and meet the AMISR deployment
schedule.


Licensing Process Not Coordinated with NSF

NSF has not been provided the opportunity to review and approve SRI’s Scientific Research
Licensing Process during the AMISR project. SRI coordinated with NSF during the earlier
application for licensing of the RBO that was valid until 2003. SRI provided the environmental
assessment of the AMISR project to NSF for review and approval before submission to the
Nunavut and Canadian governments. However, SRI does not obtain NSF’s review and approval
of the Scientific Research License application or the annual reports submitted to NRI. The terms
of the cooperative agreement require that SRI obtain NSF’s review and approval of all
agreements before they are entered into with the Nunavut and Canadian governments and will
ensure the agreements protect NSF’s and SRI’s property rights at the RBO. NSF wants to ensure
that provisions are made to protect NSF’s and SRI’s ownership rights, assignment and transfer
rights to other NSF projects, and the right to remove equipment from Canada at the end of the
project.

The lack of a written policy and procedure for identifying NRI’s and              other regulatory
requirements for obtaining licenses and approvals have contributed to SRI’s       failure to obtain
approvals from NSF. A written policy and execution plan would ensure that         all of NSF’s and
SRI’s property rights are protected, complete scientific activity is reported,    and licenses are
renewed timely.


Summary

Compliance with Nunavut’s and Canada’s regulatory requirements is critical to ensure the
success of all NSF research activities and the timely completion of the AMISR project in 2008.
If SRI is publicly cited for failure to report scientific activity and failure to renew the required
license in a timely manner, SRI and NSF run the risk of poor government relations with Nunavut
territorial government and the local community of Resolute Bay; loss of property rights to the
AMISR project; and continued AMSIR project delays and increased project costs. SRI could be



                                                12
subject to penalties and fines imposed by the NRI for failure to maintain the proper license under
provisions of the Scientists Act.

The NSF and the U.S. Government could also be subject to negative publicity, public criticism,
and embarrassment for not complying with Nunavut and Canadian regulatory requirements that
are designed to protect the territorial environment and protect the safety of its citizens.
Compliance with regulatory statutes prevents infractions from occurring that increase Nunavut’s
risks to its environment and increase SRI’s risk of environmental liabilities. It will also reduce
the risk of lost trust of the Nunavut and Canadian governments and possible lost opportunities
for future approvals of research and scientific projects in the territory.

Recommendation 1:

We recommend that NSF’s Director of the Division of Institutional and Award Support (DIAS)
ensure that SRI establish and implement written license renewal policies and procedures to
ensure that the proper licenses are obtained and scientific activity is included in the annual
reports in a timely, accurate, and thorough manner. We also recommend that these written
policies and procedures include provisions where SRI develop a tracking and notification
mechanism for identifying expiration dates for regulatory requirements at the RBO and provide
direct notification to NSF program officials to alert them of expiring requirements.

Recommendation 2:

We recommend that NSF’s Director of DIAS ensure that SRI obtain and maintain the required
international Scientific Research License renewals needed for all NSF projects including the
AMISR at the RBO.

Recommendation 3:

We recommend that NSF’s Director of DIAS ensure that SRI coordinate the license application
process with NSF as required in the award agreement, which would ensure that all of NSF’s and
SRI’s property rights are protected, complete scientific activity is reported, and licenses are
renewed timely.


Awardee’s Comments

SRI concurs with the finding and recommendations. Since the audit, SRI states that it has added
all of the license renewal and scientific reporting requirements of the Canadian or Provincial
government agencies and NSF’s review and approval requirements into SRI’s project
deliverables reporting and tracking system. This system allows for the reporting and tracking of
due dates and status of the project deliverables and/or reporting requirements under each of
SRI’s contracts.




                                               13
Auditor’s Response

SRI’s comments are responsive to the finding and recommendations. Tracking all of the license
renewal, scientific reporting, and NSF review and approval requirements in SRI’s project
deliverables reporting and tracking system, in connection with adequate NSF review and
approval, should correct the noncompliance finding. However, the finding should not be closed
until NSF determines that proposed corrective actions have been satisfactorily implemented.




                                             14
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
               Conrad Government Services Division




         INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES


National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


We have audited the costs claimed by SRI International (SRI) to the National Science
Foundation (NSF) on the Federal Cash Transactions Reports (FCTRs) for the NSF award listed
below. The FCTRs, as presented in the Schedule of Award Costs (Schedule A), are the
responsibility of SRI’s management. Our responsibility is to express an opinion on the Schedule
of Award Costs (Schedule A) based on our audit.

            Award Number                           Award Period                         Audit Period

            ATM-0121483                         08/01/03 – 7/31/07                  08/01/03 – 12/31/06


We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards (2007 revision), issued by the Comptroller General of the United States and the
guidance provided in the National Science Foundation Audit Guide (December 2004 amended),
as applicable. These standards and the National Science Foundation Audit Guide, require that
we plan and perform the audit to obtain reasonable assurance that the amounts claimed to NSF as
presented in the Schedule of Award Costs (Schedule A) are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedule of Award Costs (Schedule A). An audit also includes assessing the accounting
principles used and the significant estimates made by SRI’s management, as well as evaluating
the overall financial schedule presentation. We believe that our audit provides a reasonable basis
for our opinion.

In our opinion, the Schedule of Award Costs (Schedule A) referred to above presents fairly, in all
material respects, the costs claimed on the FCTRs for the period August 1, 2003 to December 31,
2006 in conformity with the provisions of the National Science Foundation Audit Guide, NSF
Grant Policy Manual, terms and conditions of the NSF award and on the basis of accounting

             2301 Dupont Drive, Suite 200 y Irvine, California 92612 y 949-474-2020 ph y 949-263-5520 fx
    12761 Darby Brooke Court, Suite 201 y Woodbridge, Virginia 22192 y 703-491-9830 ph y 703-491-9833 fx
described in the Notes to the Financial Schedule, which is a comprehensive basis of accounting
other than generally accepted accounting principles. This schedule is not intended to be a
complete presentation of financial position in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, and provisions of the National Science
Foundation Audit Guide, we have also issued a report dated March 27, 2008, on our tests of
SRI’s internal control over financial reporting and on compliance and other matters. The
purpose of that report is to describe the scope of our testing over internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. That report is an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in
conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of SRI’s management, NSF, SRI’s
cognizant Federal audit agency, Office of Management and Budget, and the Congress of the
United States, and is not intended to be, and should not be used by anyone other than these
specified parties.




Woodbridge, Virginia
March 27, 2008




                                                16
                                                                                 SCHEDULE A

                                   SRI INTERNATIONAL
                  National Science Foundation Award Number ATM-0121483
                                   Schedule of Award Costs
                             August 1, 2003 – December 31, 2006
                                            Interim

                                      Approved             Claimed         Questioned   Schedule
         Cost Category                 Budget              Costs (A)         Costs      Reference
 Direct costs:
   Salaries and Fringe Benefits   x x x xxx                xxx    xxx             -
   Travel                         x      xxx           X x x     xxx              -
   Other direct costs:            xxx     xx           Xxx       xxx
        Equipment                 x     x xx           X xx      xxx              -
        Material and supplies     Xx x xxx                        xxx             -
        Publication Costs          X xx xxx            Xx           x
        Consulting                 x     xxx           x          xxx             -
        Subcontracts               x     xxx                      xxx             -
        Computer                         xxx           x         xx x             -

          Total direct costs      x         xxx                   xxx             -

 Indirect costs                   x         xxx        x         xx x             -

          Total                   x         xxx        x         xxx              -

 Cost sharing                     $          -             $           -          -


(A) - The total claimed costs agrees with the total expenditures reported by SRI on the Federal
Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended December
31, 2006. Claimed costs reported above are taken from the awardee's books of accounts.




See Accompanying Notes to this Financial Schedule.




                                                  17
                                                                             SCHEDULE B


                                  SRI International
                  Summary Schedules of Award Audited and Audit Results
                      From August 1, 2003 to December 31, 2006


Summary of Award Audited

    Award Number              Award Period                Audit Period
    ATM-0121483          08/01/2003 to 07/31/2007   08/01/2003 to 12/31/2006

    Award Number         Type of Award                    Award Description
    ATM-0121483         Cooperative         To design, construct, and deploy modular
                        Agreement           phased-array radar that can be assembled and
                                            disassembled easily and at a low cost to
                                            provider upper atmospheric and ionospheric
                                            observing capabilities at different locations.


Summary of Questioned and Unsupported Costs by Award

                                            Claimed       Questioned      Unsupported
    Award Number        Award Budget         Costs          Costs            Costs
    ATM-0121483         x      x xx       x      xxx              $0             $0
        Total           x      x xx       x      xxx              $0             $0


Summary of Non-Compliance and Internal Control Findings

                                                 Non-Compliance or                Material or
                   Findings                       Internal Control                Reportable
   International Permits not maintained           Non-Compliance                  Reportable




                                            18
                                 SRI INTERNATIONAL
                                Notes to Financial Schedules
                          From August 1, 2003 to December 31, 2006


Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedules have been prepared in conformity with
          National Science Foundation (NSF) instructions, which are based on a comprehensive
          basis of accounting other than generally accepted accounting principles. Schedule A
          has been prepared by SRI from the Federal Cash Transactions Reports submitted to
          NSF and SRI’s accounting records. The basis of accounting utilized in preparation of
          these reports differs from generally accepted accounting principles. The following
          information summarizes these differences:

           A. Equity
               Under the terms of the award, all funds not expended according to the award
               agreement and budget at the end of the award period are to be returned to NSF.
               Therefore, the awardee does not maintain any equity in the award and any excess
               cash received from NSF over final expenditures is due back to NSF.

           B. Equipment
               Equipment is charged to expense in the period during which it is purchased
               instead of being recognized as an asset and depreciated over its useful life. As a
               result, the expenses reflected in the Schedule of Award Costs include the cost of
               equipment purchased during the period rather than a provision for depreciation.
               Except for awards with nonstandard terms and conditions, title to equipment
               under NSF awards vests in the recipient, for use in the project or program for
               which it was acquired, as long as it is needed. The recipient may not encumber
               the property without approval of the federal awarding agency, but may use the
               equipment for its other federally sponsored activities, when it is no longer needed
               for the original project.

           C. Inventory
               Minor materials and supplies are charged to expense during the period of
               purchase. As a result, no inventory is recognized for these items in the financial
               schedules.

          Income Taxes

          SRI is a non-profit entity within the state of California and is exempt from income
          taxes.



                                               19
                               SRI INTERNATIONAL
                              Notes to Financial Schedules
                        From August 1, 2003 to December 31, 2006

The departure from generally accepted accounting principles allows NSF to properly monitor
and track actual expenditures incurred by the Grantee. The departure does not constitute a
material weakness in internal controls.



Note 2:   Indirect Cost Rates

       Award               Program        Indirect Cost
      Number                 Year             Rate        Base
    ATM-0121483       08/01/03 – 07/31/04    xxxxxx       Eng OH
                                             xxxxxx       G&A
                                             xxxxxx       Off-Site OH
                                             xxxxxx       Support Cost
                                             xxxxxx       Sys OH
    ATM-0121483       08/01/04 – 07/31/05    xxxxxx       Eng OH
                                             xxxxxx       G&A
                                             xxxxxx       Off-Site OH
                                             xxxxxx       Support Cost
                                             xxxxxx       Sys OH
    ATM-0121483       08/01/05 – 07/31/06    xxxxxx       Eng OH
                                             xxxxxx       G&A
                                             xxxxxx       Off-Site OH
                                             xxxxxx       Support Cost
                                             xxxxxx       Sys OH
    ATM-0121483       08/01/06 – 07/31/07    xxxxxx       Eng OH
                                             xxxxxx       G&A
                                             xxxxxx       Off-Site OH
                                             xxxxxx       Support Cost
                                             xxxxxx       Sys OH




                                            20
APPENDIX A - AUDITEE’S
COMMENTS TO REPORT




       21
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

           Email Hotline
           oig@nsf.gov

            Telephone
           703-292-7100

    Toll-free Anonymous Hot Line
            1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




              21
